No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re DALE MCKENZIE, PETITIONER,
VS.
DAVID VANDERGRIFF, RESPONDENT.
PROOF OF SERVICE
day of
I, Dale McKenzie, do declare that on this
, 2020, as required by Supreme Court Rule 29,
I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF HABEAS CORPUS on each party
to the above proceeding or that party's counsel, by depositing
an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class
postage prepaid. The names and addresses of those served are
as follows: Eric Schmitt, Attorney General of Missouri, P0 Box
899, Jefferson City, MO 65102.
Executed on this

7yu/

, 2020.

day of

Dale McKenzie

Additional material
from this filing is
available in the
Clerk's Office.

